2311 Douglas Street A L | Brief E-Mail Address:
ega riefs
Omaha, Nebraska 68102-1214 & ae © 33 contact@cocklelegalbriefs.com
st. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 21-121

CHRISTIANA TAH; RANDOLPH MCCLAIN,
Petitioners,
v.
GLOBAL WITNESS PUBLISHING, INC.,
GLOBAL WITNESS,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age. being duly sworn, upon my oath state that I did, on the 27th day of August, 2021, send out
from. Omaha, NE 3 package(s) containing 3 copies of the AMICI] CURIAE BRIEF OF THE BEVERLY HILLS BAR
ASSOCIATION, LITIGATION SECTION AND THE CALIFORNIA SOCIETY OF ENTERTAINMENT LAWYERS. IN
SUPPORT OF PETITION FOR. WRIT OF CERTIORARI in the above entitled case. All parties required to be served have
been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
D. ALEXANDER FLOUM STEVEN T. LOWE
Counsel of Record LOWE & ASSOCIATES P.C.
HILLARY JOHNS, TRIAL LAWYER 8383 Wilshire Blvd.
9461 Charleville Blvd.. #742 Suite 1038
Beverly Hills, CA 90212 Beverly Hills, CA 90211
(310) 492-4009 (310) 477-5811
Alex@Hillary TrialLawyer.com Steven@LoweLaw.com
Attorneys for Amicus Curiae Attorneys for Amicus Curiae
Beverly Hills Bar Association, California Society of
Litigation Section Entertainment Lawyers

Subscribed and sworn to before me this 27th day of August, 2021
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-Slate of Nebraska
f RENEE J. GOSS Feces 9. , ae Qudraw- & Chk

Notary Public Affiant 41402

My Comm. Exp. September §, 2023

 
Counsel for Petitioners, CHRISTIANA TAH and RANDOLPH MCCLAIN:

Rodney A. Smolla
4601 Concord Pike
Wilmington, DE 19803
(864) 373-3882
rodsmolla@gmail.com

Arthur V. Medel

Medel Sanfilipo

1701 Pennsylvania Avenue, N.W.
Suite 200

Washington, D.C. 20006

(703) 945-9137
avmedel@medsanlaw.net

Counsel for Respondents. GLOBAL WITNESS PUBLISHING, INC. and GLOBAL
WITNESS:

Chad R. Bowman

Ballard Spahr LLP

1909 K Street, NW, 12th Floor
Washington, DC 20006-1157
(202) 508-1120
bowmanchad@ballardspahr.com
